APPENDIX
Decision of the court of appeals
United States v. Torres Zuniga, 807 F. App’x 260 (4th Cir. 2020) .................. 1a
District court’s memorandum opinion
United States v. Torres Zuniga, 390 F. Supp. 3d 653 (E.D.Va. 2019)............. 3a

-iv-

United States v. Torres Zuniga, 807 Fed.Appx. 260 (2020)

Erlin Josue Torres Zuniga pled guilty to illegal reentry, in
violation of
8 U.S.C. § 1326(a) (2018). He was sentenced
to 12 months’ imprisonment. In his written plea agreement,
Zuniga reserved the right to challenge on appeal the district
court's order denying his motion to dismiss. Finding no error,
we affirm.

807 Fed.Appx. 260 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007. See
also U.S.Ct. of Appeals 4th Cir. Rule 32.1.
United States Court of Appeals, Fourth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Erlin Josue TORRES ZUNIGA, a/k/a Erlin
Jose Torres-Zuniga, a/k/a Mazimilliano
Dejesus Pinzon, a/k/a Max Dejesus
Pinzon, a/k/a Joche Torres-Zuniga, a/k/
a Kevin G. Zuniga, Defendant - Appellant.
No. 19-4663
|
Submitted: May 27, 2020
|
Decided: June 1, 2020

An alien who has been removed from the United States
pursuant to an order of removal, but reenters the country
illegally may be charged with illegal reentry in violation of
8 U.S.C. § 1326(a). “In a criminal proceeding for illegal
reentry, the existence of a removal order usually is enough to
meet the government's burden of establishing the defendant's
prior removal or deportation.”
United States v. Cortez,
930 F.3d 350, 356 (4th Cir. 2019). Zuniga argued before the
district court that the underlying order of removal was invalid
because the immigration judge (“IJ”) lacked jurisdiction to
conduct his removal proceedings. On a motion to dismiss an
indictment under
8 U.S.C. § 1326(d) (2018), we review
a district court's factual findings for clear error and the
court's legal conclusions *261 de novo. See United States v.
Hosford, 843 F.3d 161, 163 (4th Cir. 2016).

Appeal from the United States District Court for the Eastern
District of Virginia, at Richmond. Robert E. Payne, Senior
District Judge. (3:18-cr-00155-REP-1)
Attorneys and Law Firms
Geremy C. Kamens, Federal Public Defender, Alexandria,
Virginia, Joseph S. Camden, Assistant Federal Public
Defender, OFFICE OF THE FEDERAL PUBLIC
DEFENDER, Richmond, Virginia, for Appellant. G. Zachary
Terwilliger, United States Attorney, Alexandria, Virginia, S.
David Schiller, Assistant United States Attorney, OFFICE OF
THE UNITED STATES ATTORNEY, Richmond, Virginia,
for Appellee.

Pursuant to
8 U.S.C. § 1326(d), a defendant may not
challenge the validity of the removal order unless the
defendant demonstrates that:
(1) the alien exhausted any administrative remedies that
may have been available to seek relief against the order;
(2) the deportation proceedings at which the order was
issued improperly deprived the alien of the opportunity for
judicial review; and
(3) the entry of the order was fundamentally unfair.

Before MOTZ, THACKER, and QUATTLEBAUM, Circuit
Judges.

The order is fundamentally unfair if the defendant shows
that “(1) his due process rights were violated by defects in
his underlying deportation proceeding, and (2) he suffered

Opinion

prejudice as a result of the defects.”
United States v. El
Shami, 434 F.3d 659, 664 (4th Cir. 2005).

Unpublished opinions are not binding precedent in this
circuit.

Here, Zuniga failed show that he exhausted his administrative
remedies or that he was improperly deprived of judicial
review. Furthermore, he failed to show that entry of the
order was fundamentally unfair. His assertion that he was

PER CURIAM:

excused from satisfying

Affirmed by unpublished per curiam opinion.

App 1a

§ 1326(d) because the IJ lacked

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Torres Zuniga, 807 Fed.Appx. 260 (2020)

jurisdiction is without merit. See
Cortez, 930 F.3d at
358 (rejecting similar jurisdictional argument); see also
United States v. Lira-Ramirez, 951 F.3d 1258, 1262-63
(10th Cir. 2020) (holding that transitional rules under the
Illegal Immigration Reform and Immigrant Responsibility
Act did not clearly show that
jurisdictional).

Accordingly, we affirm the district court's judgment. We
dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before
this court and argument would not aid the decisional process.
AFFIRMED

8 U.S.C. § 1229 (2018) is
All Citations
807 Fed.Appx. 260 (Mem)

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 2a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

[2]

Original Image of 390 F.Supp.3d 653 (PDF)

390 F.Supp.3d 653
United States District Court, E.D. Virginia,
Richmond Division.

Constitutional Law
exclusion; deportation

Criminal No. 3:18-cr-155
|
Signed 05/10/2019
Synopsis
Background: Alien defendant was charged by indictment
with illegal reentry after deportation. The defendant filed
a motion to dismiss indictment on the ground that the
underlying removal order was void for lack of jurisdiction.

Holdings: The District Court, Robert E. Payne, Senior
District Judge, held that:

Immigration and Nationality Act § 276,
U.S.C.A. § 1326(d).

[3]

[2] defendant was not excused from proving elements
necessary to collateral challenge to underlying removal order.

Aliens, Immigration, and
Citizenship
Collateral Attack

Immigration and Nationality Act § 276,
U.S.C.A. § 1326(d)(3).

Denied.
[4]

West Headnotes (10)

8

Aliens, Immigration, and
Citizenship
Collateral Attack
An alien may be excused from meeting certain
of the statutory requirements for a challenge to
an underlying deportation order, in the context
of a criminal proceeding on a charge for
illegal reentry after deportation, if the underlying
deportation proceeding was procedurally flawed
in a material way. Immigration and Nationality

Aliens, Immigration, and
Citizenship
Reentry after removal
Voluntary departure is not a prior “removal,”
for purposes of a charge for illegal reentry
after deportation or removal. Immigration and
Nationality Act § 276,

8

To show prejudice, as required for an alien
defendant to show that a deportation or removal
order was fundamentally unfair, in the context
of a criminal prosecution for illegal reentry after
deportation, the alien must show that, but for
the errors complained of, there was a reasonable
probability that he would not have been deported.

[1] removal order was not void for lack of jurisdiction,
as would require dismissal of for illegal reentry after
deportation, even if initial notice to appear lacked information
relating to date and time of hearing, and

[1]

Admission and

The provision of the statute criminalizing illegal
reentry after deportation, which allows an
alien defendant to challenge the underlying
deportation order, is concerned with failures of
due process in an immigration proceeding that
would make it fundamentally unfair to rely on
a removal order coming out of that proceeding;
the statute focuses the inquiry on whether there
were procedural defects in the immigration
proceeding that insulate the resulting order
from judicial review. U.S. Const. Amend. 5;

UNITED STATES of America,
v.
Erlin TORRES ZUNIGA, Defendant.

Procedural Posture(s): Pre-Trial Hearing Motion.

Aliens, Immigration, and
Citizenship
Denial of right to appeal;
waiver of right

Act § 276,

8 U.S.C.A. § 1326.

App 3a

8 U.S.C.A. § 1326(d).

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

[5]

Aliens, Immigration, and
Collateral Attack
Citizenship

[8]

The burden of proof to establish that the elements
necessary to bring a collateral challenge the
validity of an underlying deportation or removal
has been satisfied, for the purposes of a criminal
charge for illegal reentry after deportation, rests
with the defendant, and that burden must be met
by a preponderance of the evidence. Immigration
and Nationality Act § 276,
1326(d).

[6]

The jurisdiction of the immigration court
over a removal proceeding is established by
regulations, and these regulations define when
jurisdiction vests, not the statute governing the
initiation of removal proceedings. Immigration
and Nationality Act § 239,
8 U.S.C.A.
§ 1229(a); 8 C.F.R. §§ 1003.13, 1003.14,

8 U.S.C.A. §

Aliens, Immigration, and
Citizenship
Collateral Attack

1003.15,

[9]

8 U.S.C.A. § 1326(d).

Aliens, Immigration, and
Citizenship
Notice; order to show cause
Immigration court had jurisdiction over removal
hearing, and thus, removal order was not void for
lack of jurisdiction, as would require dismissal
of subsequent charge for illegal reentry after
deportation, even if initial notice to appear served
on alien defendant lacked information relating to
date and time of hearing; regulation governing
contents of notice to appear did not require
that it include date and time of hearing, but
only that date and time be included “where
practicable,” alien defendant was later served
with second notice that contained information,
and alien appeared for hearing. Immigration and
Nationality Act §§ 239, 276,
1229(a),

1326;

Aliens, Immigration, and
Citizenship
Notice; order to show cause

1 Cases that cite this headnote
[10]

[7]

1003.18.

The regulation providing that jurisdiction vests
in an immigration court over a removal
proceeding upon the filing of a charging
document does not impose a subject-matter
jurisdictional limitation on immigration courts. 8
C.F.R. § 1003.14(a).

If an alien defendant meets his burden of
proving, by a preponderance of the evidence,
the three elements necessary to permit a
collateral challenge to an underlying deportation
or removal order, the charge for illegal reentry
following deportation or removal must be
dismissed as a matter of law. Immigration and
Nationality Act § 276,

Aliens, Immigration, and
Administrative Procedure
Citizenship

8 U.S.C.A. §§

8 C.F.R. §§ 1003.15(b),

1003.18(b).
1 Cases that cite this headnote

Aliens, Immigration, and
Citizenship
Collateral Attack
Alien defendant was not excused from proving
elements necessary to collateral challenge to
underlying removal order, in prosecution for
illegal reentry after deportation or removal,
based solely on erroneous assertion that removal
order was void for lack of jurisdiction due
to omission in initial notice to appear of date
and time for removal hearing. Immigration and
Nationality Act § 276,

8 U.S.C.A. § 1326(d).

1 Cases that cite this headnote

Attorneys and Law Firms
*655 S. David Schiller, Esquire, Heather M. Mansfield,
Esquire, Assistant United States Attorney, United States
Attorney's Office, Richmond, VA, for United States of
America.

App 4a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

Joseph S. Camden, Esquire, Office of the Federal Public
Defender, Richmond, Virginia, for Defendant.

MEMORANDUM OPINION
Robert E. Payne, Senior United States District Judge
This matter is before the Court on DEFENDANT'S MOTION
TO DISMISS THE INDICTMENT (the “Motion”) (ECF No.
13), which for the following reasons, will be denied.

BACKGROUND
I. Procedural Context
Erlin Torres Zuniga (“Torres”) 1 was charged in a one-count
indictment with illegal reentry pursuant to
8 U.S.C. §
1326(a). ECF No. 1. On February 22, 2019, Torres filed
2

the Motion. ECF No. 13. The parties briefed the Motion,
and, on April 9 and 10, 2019, the Court received evidence
and heard oral argument on it. The Motion is now ripe for
decision.
II. Factual Background
[1] Torres is a citizen of Honduras. ECF No. 14 at 1; Gov't
Ex. 2. Torres, then *656 17-years-old, entered the United
States illegally near Sasabe, Arizona sometime around July
11, 2007. Gov't Ex. 2. On July 16, 2007, Torres was served in
person with a Notice to Appear (“NTA”) informing him that
he was to appear at a future removal hearing and advising him
of the consequences of failing to appear. 3 Gov't Ex. 2 (the
“2007 NTA”). Thereafter, Torres attended an immigration
hearing on September 28, 2007 at which he was granted
voluntary departure to Honduras. 4 Gov't Ex. 3. Torres left the
United States on October 31, 2007 on an immigration charter
flight from Houston, Texas. Gov't Ex. 4. This was Torres' first
known encounter with immigration officials.
Then, on or around February 5, 2008, Torres reentered the
United States illegally, again near Sasabe, Arizona. Gov't Ex.
5. Torres was issued a second NTA on February 6, 2008.
Id. (the “2008 NTA”). The 2008 NTA indicates that Torres
was being held at the Southwest Key Unaccompanied Minor
Shelter in Phoenix. 5 Id.; ECF No. 13 at 1.

The 2008 NTA did not contain a date or time for Torres'
immigration hearing. Gov't Ex. 5; ECF No. 13 at 1; ECF No.
14 at 1. The 2008 NTA's Certificate of Service reflects that
Torres was served with the NTA in person on February 6,
2008, and that he was given oral notice of the time and place
of his immigration hearing, as well as the consequences of
not appearing. Govt' Ex. 5. An attachment to the 2008 NTA
included a list of free legal services. Id.
On March 4, 2008, while still held at the Southwest Key
Unaccompanied Minor Shelter, a Notice of Hearing (“NOH”)
was provided to Torres. The NOH advised Torres that his
hearing before the immigration court would occur on March
17, 2008 at 9:00 a.m. at the specified immigration court in
Phoenix, Arizona. Gov't Ex. 6. The Certificate of Service does
not indicate how the NOH was served on Torres, but does
indicate that the NOH was served on the “Alien c/o Custodial
Officer” and also that it was served on “DHS.” Id.
Torres appeared in person at the immigration hearing on
March 17, 2008. Gov't Ex. 7 (indicating Order of the
Immigration Court was served on Torres in person); ECF
No. 14 at 2. At the hearing, Torres was represented by pro
bono counsel Elizabeth Sweet. ECF No. 19 at 2 (Immigration
Hr'g Tr.). The immigration court allowed a short recess for
Torres to consult with counsel. Id. at 3. Through counsel,
Torres “concede[d] proper service of the charging document,”
“admit[ted] [the remaining] factual allegations” in the NTA,
“designate[d] Honduras as [the] country of removal,” and
“waive[d] appeal.” Id. at 2-4. Torres told the Immigration
Judge that he wanted to return to Honduras and that he did
not fear harm in returning there. Id. at 4. At the close of the
hearing, Ms. Sweet withdrew as Torres' counsel. Id.
*657 On that same day (March 17, 2008), the immigration
court issued an Order of Removal for Torres, designating
Honduras as the country of removal. Gov't Ex. 7. A Warrant of
Removal/Deportation for Torres was issued on April 8, 2008.
Gov't Ex. 8. Torres was removed from the United States on
an immigration flight from Houston, Texas on April 14, 2008.
Id. At the time of his 2008 removal, Torres was issued (and
signed) a form informing him that he was prohibited from
entering the United States for a period of 10 years. Id.
Following his removal in 2008, Torres' immigration record
establishes that he re-entered the United States illegally on or
about June 14, 2012, on or about February 5, 2013, and on or
about March 31, 2014. See Gov't Exs. 9, 11, 13. In each case,
he was encountered by immigration officials and his 2008

App 5a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

Removal Order (Gov't Ex. 7) was reinstated. Id. And, in each
case, pursuant to the 2008 Removal Order, he was removed
from the United States. See Gov't Exs. 10, 12, 14. At each
removal, Torres was issued (and signed) a form informing him
that he was now prohibited from entering the United States
for a period of 20 years because he had illegally entered the
United States following removal. Id.

(1) the alien exhausted any administrative remedies that
may have been available to seek relief against the order;
(2) the deportation proceedings at which the order was
issued improperly deprived the alien of the opportunity
for judicial review; and
*658 (3) the entry of the order was fundamentally
unfair.

Torres was then encountered in Virginia on or about
November 27, 2018. 6 See ECF No. 1. Thereafter, he was
indicted for the presently pending illegal reentry charge. Id.

8 U.S.C. § 1326(d) (emphasis added). To satisfy
Section 1326(d)(3), the Fourth Circuit has held that an
alien “must show that (1) his due process rights were violated
by defects in his underlying deportation proceeding, and (2)

DISCUSSION
I. Framework For Collateral Challenges To Prior
Deportation Orders

he suffered prejudice as a result of the defects.”
United
States v. El Shami, 434 F.3d 659, 664 (4th Cir. 2005) (quoting

8
[2] Torres has been charged with illegal reentry under
U.S.C. § 1326(a). To prove that charge, one of the elements
that the Government will have to establish is that Torres
“has been denied admission, excluded, deported, or removed”
and thereafter reentered the United States without, inter alia,

United States v. Wilson, 316 F.3d 506, 510 (4th Cir.
2003)). To show prejudice, the alien must show that, “but for
the errors complained of, there was a reasonable probability

the permission of the United States Attorney General.

8

U.S.C. § 1326(a). In
United States v. Mendoza-Lopez,
481 U.S. 828, 107 S.Ct. 2148, 95 L.Ed.2d 772 (1987), the
Supreme Court of the United States held that, in illegal
reentry cases, an alien has a due process right to challenge the
underlying deportation order. Thereafter, Congress codified
8 U.S.C. § 1326(d). See
the due process requirements in
United States v. Moreno-Tapia, 848 F.3d 162, 165-66, 169
(4th Cir. 2017). At bottom,
Section 1326(d) “is concerned
with failures of due process in an immigration proceeding that
would make it fundamentally unfair to rely on a removal order
coming out of that proceeding.” Id. at 169. The statute focuses
the inquiry on whether there were “procedural defect[s] in an
immigration proceeding [that] insulate[ ] the resulting order
from judicial review....” Id.

that he would not have been deported.”

Id. at 665. An alien

may be excused from meeting certain
Section 1326(d)
requirements if the underlying deportation proceeding was
procedurally flawed in a material way. See Moreno-Tapia,
848 F.3d at 169;
United States v. Lopez-Collazo, 824 F.3d
453, 459-62 (4th Cir. 2016) (due process violation where alien
was served the I-851 form in language he did not understand);
El Shami, 434 F.3d at 662-64 (excusal from

Sections

(d) (2) and due process violation where
1326(d) (1) and
alien did not receive notice of his immigration proceeding).
It is evident from the statutory text that the defendant must

satisfy (or be excused from) all three elements of
Section
1326(d) to succeed in a collateral challenge. And, this Court
has so held. United States v. Gonzalez-Ferretiz, No. 3:18cr-117, 2019 WL 943388, *3-4 (E.D. Va. Feb. 26, 2019)
(surveying Fourth Circuit and district court decisions and
holding “that an alien may only challenge his underlying
[3] [4]
Section 1326(d) sets out three elements that an deportation order by satisfying the three requirements of
alien must prove to challenge the underlying deportation
Section 1326(d)”); see also Moreno-Tapia, 848 F.3d at
order. In full, that subsection reads:
166;
El Shami, 434 F.3d at 663; United States v. GomezSalinas, No. 2:19cr10, 2019 WL 1141063, *2-4 (E.D. Va.
In a criminal proceeding under this section [ 8 U.S.C.
Mar. 12, 2019) (Davis, C.J.) (“[A] defendant must satisfy all
§ 1326], an alien may not challenge the validity of
the deportation order described in subsection (a)(1) or
subsection (b) unless the alien demonstrates that–

three provisions [of
Section 1326(d)] before he may wage
a collateral attack on the prior removal order.”); United States

App 6a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

v. Romero-Caceres, 356 F. Supp. 3d 541, 547 (E.D. Va. 2018)
(“[D]efendant here may not challenge the June 2007 Removal
Order unless he meets all three § 1326(d) requirements.”).
The Court's analysis in Gonzalez-Ferretiz applies in full force
here. 7
[5]

[6] As the Court has previously noted, the burden of

proof to establish that the elements of
Section 1326(d)
have been satisfied “rests with the defendant.” United States
v. Galcia, No. 1:15cr59, 2016 WL 4054926, *2 (E.D. Va. July
26, 2016). And, that burden must be met by “a preponderance
of the evidence.” Id. (citing several cases). If the alien meets
his burden, “the illegal reentry charge must be dismissed as a
matter of law.” El Shami, 434 F.3d at 663 (citing

Wilson).

Section 1326 prosecution. See ECF No. 13 at 5-16. That
argument relies on the decision of the Supreme Court of
Pereira v. Sessions, ––– U.S. ––––,
the United States in
138 S. Ct. 2105, 201 L.Ed.2d 433 (2018). The argument
proceeds as follows: (1) a document titled “Notice to Appear”
without a date or time is not an NTA under
1229(a) after

prosecutions outside of

Section 1326

*659 Section 1326(d) flies in

the face of the clear statutory text and Congress' intent. 8
Accordingly, if the Court determines that Torres has failed to
satisfy any of the three elements of
Section 1326(d), his
collateral challenge must be rejected, and the Motion will be
denied. Conversely, if Torres satisfies (or is excused from)
the three elements of

Section 1326(d), the illegal reentry

_ P- El Shami, 434 F.3d at

indictment must be dismissed. See
663.

II. Analysis
Torres argues that the Motion should be granted because the
immigration court in 2008 lacked jurisdiction to order him
removed. This jurisdictional argument proceeds outside of
the requirements of
Section 1326(d). Then, Torres makes
a passing attempt—and clearly fails–to fit his jurisdictional
argument into the mandatory requirements of
Section
1326(d). It is appropriate to address both arguments. And,
for the reasons set forth below, the Court will deny Torres'
Motion.

A. Jurisdiction Of Immigration Court
[7] Torres argues that the immigration court lacked
jurisdiction in 2008 and that, therefore, his 2008 removal
order was ultra vires and cannot be used to support a

Pereira's interpretation; (2) a proper NTA

§ 1229(a)) is required to vest jurisdiction
(as defined by
in the immigration court; (3) the NTA served on Torres did
not contain the date and time of his removal hearing; (4)
jurisdiction did not vest in the immigration court that ordered
his removal, making its procedures a “legal nullity” and (5) no
proper prior removal exists upon which to base a prosecution
under

In sum, allowing collateral challenges in

8 U.S.C. §

8 U.S.C. § 1326. See ECF No. 13 at 5-16.

The Government argues that Torres must proceed through
Section 1326(d) and that he has failed to demonstrate
that he satisfies any of the requirements of that statute.
Pereira
See ECF No. 14 at 2-17. It further argues that
dealt with a different question and has no application here;
that jurisdiction of the immigration courts is governed by
regulations, which were complied with here; that any defects
in the NTA were cured by the subsequent NOH; and that
any defects in the NTA “should be considered a procedural,
ministerial defect that did not prevent the [NTA] from
invoking the immigration judge's authority over the case.” Id.
at 6-16.
A few District Courts have agreed with Torres' argument
about the impact of

Pereira on the jurisdiction of the

9

immigration court. However, that is a clear minority *660
position. As far as the Court is aware, every District Court
in this Circuit to have considered a jurisdictional attack
based on
Pereira has rejected it. 10 And, unpublished,
non-binding Fourth Circuit authority supports the logic of
that view. See
Leonard v. Whitaker, 746 Fed. Appx
269, 269-70 (4th Cir. 2018) (unpublished) (per curium);
United States v. Perez-Arellano, 756 Fed. Appx. 291,
293-94 (4th Cir. 2018) (unpublished) (per curium). At least
three Courts of Appeals have rejected similar jurisdictional
attacks in published opinions, and no Circuit Court decision
to the contrary has been cited by Torres. See
Gomez v. Barr, 922 F.3d 101 (2d Cir. 2019);

App 7a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

Banegas
Karingithi v.

5

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

Whitaker, 913 F.3d 1158 (9th Cir. 2019); Hernandez-Perez
v. Whitaker, 911 F.3d 305 (6th Cir. 2018). In other words, the
clear weight of authority is against Torres' position.
The Court agrees with the well-reasoned analysis in GomezSalinas that regulations, not the statutory provisions at

Gomez-Salinas, 2019 WL 1141063 at *4. Accordingly, the
fact that the 2008 NTA in the record (Gov't Ex. 5) did not
contain the date and time of Torres' hearing is not dispositive
in this case because the regulatory definition did not require
that. Torres does not argue that the NTA was not filed with
the immigration court, as required by the regulation.

Pereira, govern the vesting of jurisdiction in
issue in
the immigration courts. 2019 WL 1141063 at *4. First,
“the statute governing removal proceedings is silent as

Pereira v. Sessions, ––– U.S. ––––, 138 S. Ct. 2105,
201 L.Ed.2d 433 (2018) does not change this analysis. In

- pa 8

to the jurisdiction of the immigration court.” Id.;

Karingithi, 913 F.3d at 1160

Pereira, the Supreme Court dealt with a “narrow question”
that “lies at the intersection of [two] statutory provisions.”

(“ Section 1229 says nothing about the Immigration Court's
jurisdiction.”).

138 S. Ct. at 2110. That question was whether a “notice
to appear” that “fails to specify either the time or place of

U.S.C. § 1229; see also

Second, because the statute is silent on jurisdiction, the
Attorney General has promulgated a regulation providing that
“[j]urisdiction vests, and proceedings before an Immigration
Judge commence, when a charging document is filed with the
Immigration Court by the Service.” 11 8 C.F.R. § 1003.14(a);
Gomez-Salinas, 2019 WL 1141063 at *4. Under a separate
regulation, 8 C.F.R. § 1003.13, an NTA is defined as a
“charging document.”

the removal proceedings...trigger[s] the stop-time rule[.]” 12
Id. Because the “stop-time rule” explicitly cross references
a “notice to appear under

the Supreme Court looked to that statutory section.

Both the statute and the regulation list requirements for the
contents of a Notice to Appear. The regulation requires a
Notice to Appear to include specified information, such as
“[t]he nature of the proceedings,” “[t]he acts or conduct
alleged to be in violation of law,” and “[n]otice that the
alien may be represented, at no cost to the government, by
counsel or other representative.” 8 C.F.R. § 1003.15 (b).
The regulation does not mandate that the time and date of
proceedings appear in the initial notice; the time and date
only need to be included “where practicable.” 8 C.F.R. §
1003.18(b). If “that information is not *661 contained in
the Notice to Appear,” the regulation permits “scheduling
the initial removal hearing and providing notice to the
government and the alien of the time, place, and date of
hearing” subsequently. Id. The statute contains largely the
same requirements as the regulation, except it demands
inclusion of “[t]he time and place at which the proceedings
will be held.”

8 U.S.C. § 1229(a) (1) (G) (i).

Id.;

see also
id. at 2114. That section,
8 U.S.C. § 1229(a),
requires, inter alia, that a notice to appear “specify[ ]...
(G)(i) The time and place at which the proceedings will
be held.”

Chief Judge Davis succinctly described the requirements of
the regulatory NTA and the differences between the statute
and the regulations:

section 1229(a) of this title,”

Id. at 2110. Finding that the “statutory text

alone [was] enough to resolve [the] case,”
id. at 2114,
the Supreme Court held that “[a] putative notice to appear
that fails to designate the specific time or place of the
noncitizen's removal proceedings is not a ‘notice to appear
under

section 1229(a),’ and so does not trigger the stop-

time rule.”

Id. at 2113-14.

[8] This “narrow” holding does not address the
jurisdiction of the immigration court, which, as discussed
above, is established by regulations. See 8 C.F.R. §§
1003.13- 1003.15,
§ 1003.18; Gomez-Salinas, 2019
WL 1141063 at *4. As the Ninth Circuit recently held,
“[t]he regulations, not

§ 1229(a), define when jurisdiction

vests.
Section 1229 says nothing about the Immigration
Court's jurisdiction. And for their part, the regulations make
no reference to
appear.’ ”

§ 1229(a)'s definition of a ‘notice to

pa Karingithi, 913 F.3d at 1160; see
_ also P- id. at
- -

1161 (discussing how
Pereira's analysis “hinge[d] on ‘the
intersection’ of two statutory provisions”); Gomez-Salinas,
2019 WL 1141063 at *5 (quoting

App 8a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

Karingithi);

Banegas
6

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

Gomez, 922 F.3d at 110-12. As the Court in ~ Karingithi
- so

Pereira is distinguishable and did
not address this issue.

aptly put it, the Supreme Court's “resolution [in Pereira] of
that [narrow question at issue] cannot be recast into the broad
Karingithi,
jurisdictional rule Karingithi advocates.” ~ - 913
F.3d at 1161; see also
Matter of Bermudez-Cota, 27 I. &
N. Dec. 441, 443 (BIA 2018) (noting that, had the Supreme
Court intended such a far-reaching jurisdictional ruling in
Pereira, it likely would *662 not have referred to its
holding as “narrow”).
The Fourth Circuit's unpublished opinions confirm a narrow
holding of Pereira. See ~ -Leonard, 746 Fed. Appx. at 269
(“We conclude that the narrow holding of Pereira does not
Perez-Arellano,
apply in this situation.”); ~ - 756 Fed. Appx.
at 294 (“Simply put,
Pereira did not address the question
of an immigration judge's jurisdiction to rule on an alien's
removability, and it certainly does not plainly undermine
the jurisdiction of the 2004 removal proceeding.”) (footnote
omitted). These authorities are not binding, but they are
persuasive.
Several of the authorities cited above approve of the so-called
“two-step notice process” to find that jurisdiction vested in
the immigration court upon the immigration court's sending
(to the alien) of a subsequent NOH informing the alien of the
date and time of his hearing. See, e.g., Gomez-Salinas, 2019
WL 1141063, at *5 (“[J]urisdiction vests in the immigration
court once a subsequent notice with the date and time is sent.”)
After Pereira, the Board of Immigration Appeals (“BIA”)
issued a published decision, Matter of Bermudez-Cota, 27
I. & N. Dec. 441 (BIA 2018), approving of that approach.
There, the BIA squarely held that

a notice to appear that does not
specify the time and place of an
alien's initial removal hearing vests
an Immigration Judge with jurisdiction
over the removal proceedings and
meets the requirements of section
239(a) of the Act, so long as a notice
of hearing specifying this information
is later sent to the alien. As noted,

27 I. & N. Dec. at 447. The Second, Sixth and Ninth
Circuits have expressly approved of the BIA's two-step notice
process set forth in

l" _
__
Bermudez-Cota.

See

Banegas

Gomez, 922 F.3d at 111-12; ~ Hernandez-Perez,
- - 911 F.3d at
313;

~

Karingithi,
-

913 F.3d at 1161-62; see also Leonard,

746 Fed. Appx. at 269-70 (citing
Bermudez-Cota);
Romero-Caceres, 356 F. Supp. 3d at 553-54 (approving of
Bermudez-Cota); Gomez-Salinas, 2019 WL 1141063 at *6
Bermudez-Cota for support but declining to
& n. 8 (citing
decide on how much deference to give it).
Here, the record is clear that Torres received an NTA that did
not contain the date and time of his removal hearing, which
is in accordance with the regulations. Gov't Ex. 5. The record
is also clear that, subsequently, an NOH was sent to Torres
(who was in an unaccompanied minor shelter at the time)
informing him that his immigration court hearing would be
held on March 17, 2008 at 9:00 a.m. at a specified location in
Phoenix, Arizona. 13 Gov't Ex. 6; see Gomez-Salinas, 2019
WL 1141063 at *6 (NTA did not include date and time, but
jurisdiction vested when “the Defendant and his counsel in the
removal proceedings were sent a subsequent notice...which
indicated the hearing would take place [on a specific date]”).
And, Torres appeared at his immigration hearing, belying
any claim that he did not know of it. Thus, at the latest, the
immigration court had jurisdiction on March 4, 2008, when
the NOH was sent to Torres, and could appropriately order
him removed.
[9] However, even assuming that these two-step notice cases
are incorrect, Torres' jurisdictional argument lacks merit. That
is so because the term “jurisdiction” in the regulation is not at
all akin to the type of *663 “subject matter jurisdiction” for
which Torres appears to argue. 14 As Judge Brinkema's sound
analysis in Rivera Lopez clearly explains, “section 1003.14
does not impose a subject-matter jurisdictional limitation”
on immigration courts. 355 F. Supp. 3d at 439; Flores, 2019
WL 1756532 at *3-4 (following Rivera Lopez); Vasquez
Flores, 362 F. Supp. 3d at 355-56 (same). “ ‘Jurisdiction’ is
a term that can convey ‘many, too many, meanings.’ ” 355
F. Supp. 3d at 439 (quoting

App 9a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

Union Pac. R.R. Co. v. Bhd.
7

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

of Locomotive Eng'rs & Trainmen, 558 U.S. 67, 81, 130
S.Ct. 584, 175 L.Ed.2d 428 (2009)). Rather than a subject
matter jurisdiction limitation, Rivera Lopez analyzed Section
1003.14 as follows:

In that sense, section 1003.14(a) is
more akin to a federal court's local
rules, which (like the regulations
at issue here) are the product of
congressionally delegated gap-filling
authority, see Fed. R. Civ. P. 83(a) (1),
but which in no way affect the federal
court's subject-matter jurisdiction.
Accordingly, the best reading of
section 1003.14(a) is that although it
imposes a procedural requirement on
immigration authorities' initiation of
removal proceedings, that requirement
is not “jurisdictional” in the formal
sense, and a defect in a notice to appear
does not necessarily render a resulting
deportation order void ab initio.

That argument fails for several reasons. First, as set out
above, the use of the term “jurisdiction” “convey[s] many,
too many, meanings.” Rivera Lopez, 355 F. Supp. 3d at
439 (internal quotation omitted). It does *664 not follow
from the transitional rule's use of the term “jurisdiction”
that Torres' removal is void for lack of jurisdiction or is
ultra vires. Second, the transitional rules were not even in
force at the time of Torres' removal proceedings in 2008.
See Okpa v. U.S. I.N.S., 266 F.3d 313, 317 (4th Cir. 2001)
(transitional rules “apply to aliens who were involved in
deportation proceedings initiated prior to April 1, 1997, and
[who] were issued a final deportation order more than thirty
days after September 30, 1996”). Third, Torres has provided
no authority explaining what effect transitional rules have on
statutes codified in the United States Code. See generally 8
U.S.C. § 1229 (no reference to jurisdiction in statute); GomezSalinas, 2019 WL 1141063 at *4 (same). Nor has Torres
provided any authority establishing that these transitional
rules establish the type of jurisdiction for which he argues.
But see Flores, 2019 WL 1756532 at *3 n.5 (rejecting similar
argument); Cruz Bonilla, 2019 WL 1756533 at *3 n.4 (same).
Accordingly, this argument will be so rejected.

Rivera Lopez, 355 F. Supp. 3d at 439. Several other courts
in this Circuit have hewed to that reasoning. See Flores,
2019 WL 1756532 at *3-4; Cruz Bonilla, 2019 WL 1756533
at *3-4; Vasquez Flores, 362 F. Supp. 3d at 355-56. And,
because the reasoning is both sound and correct, it will be
applied here.
Torres' reliance on transitional rules that Congress enacted
as part of the 1996 Illegal Immigration Reform and
Immigrant Responsibility Act (“IIRIRA”) does not change
the conclusion. 15 See Flores, 2019 WL 1756532 at *3
n.5 (rejecting similar argument); Cruz Bonilla, 2019 WL
1756533 at *3 n.4 (same). Section 309(c)(2) of IIRIRA (part
of the transitional rules) allows the Attorney General, in
his discretion, to apply new IIRIRA rules to deportation
proceedings that had already commenced. Pub. L. No.
104-208, § 309(c)(2), Sept. 30, 1996, 110 Stat. 3009-626. If
the Attorney General so chose, then “the notice of hearing
provided to the alien under section 235 or 242(a) of such
Act shall be valid as if provided under section 239 of such
Act (as amended by this subtitle) to confer jurisdiction on the
immigration judge.” Id. § 309(c)(2). Torres argues that this
transitional rule establishes that Congress intended NTAs to
be jurisdictional. ECF No. 13 at 7-8.

(3) Conclusion As To Jurisdiction
For the foregoing reasons, the immigration court's 2008
removal order was not void for lack of jurisdiction.

B.

Section 1326(d)

[10] Thus, it is necessary to consider whether Torres has
satisfied the three required elements of
Section 1326(d) to
collaterally challenge his 2008 removal. See Moreno-Tapia,
848 F.3d at 166; Romero-Caceres, 356 F. Supp. 3d at 546-47.
Torres has the burden to show that he has satisfied all three
requirements of

Section 1326(d) by a preponderance of the

evidence. Galcia, 2016 WL 4054926, at *2; see also
El
Shami, 434 F.3d at 663 (discussing how the “requirements are
listed in the conjunctive, so a defendant must satisfy all three
in order to prevail”).
Torres has failed to satisfy the requirements of
1326(d) and he makes the

Section 1326(d) argument

only in passing. His exceedingly short

App 10a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

Section

Section 1326(d)

8

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

argument is entirely premised on the argument about the
immigration court's jurisdiction. See ECF No. 13 at 15-16. He
argues that, because the immigration court lacked jurisdiction,
he is excused from exhausting administrative remedies
(which he clearly has not done) and from demonstrating a
deprivation of judicial review (Torres did not seek judicial
review and in fact waived appeal). He argues that “[p]rejudice
from a void order is also presumed” and that there was a due
process violation where the immigration court's order lacked
jurisdiction. Id. 16
For the reasons set forth above, Torres' argument that the
immigration court lacked jurisdiction to order Torres removed
in 2008 has been rejected. Thus, on its own terms, Torres'
Section 1326(d) argument fails. Torres has made no other

argument that he has satisfied (or is excused from) the
requirements of

Section 1326(d), and accordingly, his

collateral challenge must be rejected. 17

*665 CONCLUSION
For the foregoing reasons, DEFENDANT'S MOTION TO
DISMISS THE INDICTMENT (ECF No. 13) will be denied.
It is so ORDERED.
All Citations
390 F.Supp.3d 653

Footnotes
1
2
3
4

The Court follows the lead of counsel for the Defendant in referring to Torres Zuniga as “Torres.”
Torres did not file a reply brief.
Though the NTA is written in English, the “Certificate of Service” indicates that Torres also received oral
notice in Spanish. Gov't Ex. 2.
Voluntary departure is not a prior removal for purposes of

__
_
_
8 U.S.C. § 1326. See pi- United
States
v. Lopez-

!" _ _ _ __

5

6
7

Collazo, 824 F.3d 453, 459 (4th Cir. 2016) (citing
United States v. Ortiz-Lopez, 385 F.3d 1202, 1204 n.1
(9th Cir. 2004) (per curium)). Accordingly, Torres' 2007 voluntary departure from the United States is not the
predicate removal for his current illegal reentry charge. That charge is founded on Torres' 2008 removal and
subsequent re-entry.
That document also incorrectly states that Torres was previously “removed from the United States” on
“11/06/2007.” Gov't Ex. 5. The record is clear that Torres left by voluntary departure on October 31, 2007.
See Gov't Exs. 3-4.
The record is not clear about why Torres was encountered on that date.
As the Court discussed in Gonzalez-Ferretiz, language in Moreno-Tapia and a recent opinion by Judge
Brinkema suggest that collateral challenges outside of
Section 1326(d) might be possible. See MorenoTapia, 848 F.3d at 170 (“We need not decide today...whether due process might in some circumstances
demand that an immigration order based on an unconstitutional conviction be subject to collateral attack.”);
United States v. Rivera Lopez, 355 F. Supp. 3d 428, 435 (E.D. Va. 2018) (it “remains an open question”
whether “due process requires that a defendant be given an opportunity to bring a collateral attack beyond
the requirements and limitations of
§ 1326(d)”) (emphasis in original).
The Court continues to be of the view that, at this juncture, given the clear language of the statute and the fact
that Moreno-Tapia,

Lopez-Collazo, and

!" _
_ all perform the collateral attack analysis solely within
El Shami

the
Section 1326(d) framework, the cogent, well-reasoned approach taken in Romero-Caceres correctly
sets out the proper framework for resolving challenges such as the one made here by Torres.

App 11a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

8

.

Section 1326(d) states that the new
The “Section-by-Section” analysis of the legislation that added
subsection “allow[s] a court in a criminal proceeding against a deported alien who re-enters the U.S. to re-

.

Section
examine the underlying deportation order only if the alien” satisfies the three requirements of
1326(d). 140 Cong. Rec. S.5558-01 (daily ed. May 11, 1994), 1994 WL 181390, at *S5571 (emphasis

o•

added). “This language taken from
United States v. Mendoza-Lopez, 481 U.S. 828, 107 S.Ct. 2148, 95
L.Ed.2d 772 (1987), is intended to ensure that minimum due process was followed in the original deportation
proceeding while preventing wholesale, time consuming attacks on underlying deportation orders.”
See, e.g.,

.

9

•

United States v. Tzul, 345 F. Supp. 3d. 785 (S.D. Tex. 2018);

Supp. 3d 402 (D.N.D. 2018);

10

.

Id.

United States v. Ortiz, 347 F.

United States v. Valladares, 2018 WL 6629653 (W.D. Tex. Oct. 30, 2018);

United States v. Virgen-Ponce, 320 F. Supp. 3d 1164 (E.D. Wash. 2018); see also Kit Johnson, Pereira
v. Sessions: A Jurisdictional Surprise for Immigration Courts, 3 Colum. Hum. Rts. L. Rev. Online 1 (2018).
See, e.g., United States v. Flores, No. 3:18-cr-152-JAG, 2019 WL 1756532 (E.D. Va. April 19, 2019); United
States v. Cruz Bonilla, No. 3:18-cr-150-JAG, 2019 WL 1756533 (E.D. Va. April 19, 2019); United States v.
Gomez-Salinas, No. 2:19cr10, 2019 WL 1141063 (E.D. Va. Mar. 12, 2019); United States v. HernandezAguilar, 359 F.Supp.3d 331 (E.D.N.C. 2019); United States v. Vasquez Flores, 362 F. Supp. 3d 349 (W.D.
Va. 2019); United States v. Rivera Lopez, 355 F. Supp. 3d 428 (E.D. Va. 2018); United States v. RomeroCaceres, 356 F. Supp. 3d 541 (E.D. Va. 2018); United States v. Ramirez, No. 3:18-cr-00026, 2018 WL
6037540 (W.D. Va. Nov. 16, 2018).

..
.

11

o ..

.

In

Shogunle v. Holder, the Fourth Circuit indicated that the NTA had to be filed with the immigration court

.

before jurisdiction would vest.
336 Fed. Appx. 322, 324-25 (4th Cir. 2009) (unpublished) (per curium).
Torres does not argue that the NTA was not filed with the immigration court; rather, he argues that the

.

NTA was defective.
Shogunle does not apply here because the “charging document” was filed with
the immigration court. See Vasquez Flores, 362 F. Supp. 3d at 355 (rejecting similar argument based on
Shogunle).

12

8 U.S.C. § 1229b(b)(1) permits the Attorney General to “cancel removal of” certain aliens if, among other
requirements, the alien “has been physically present in the United States for a continuous period of not less

.

than 10 years immediately preceding the date of such application.”
§ 1229b(b) (1) (A).
The “stop-time rule” states that “any period of continuous residence or continuous physical presence in the
United States shall be deemed to end...when the alien is served a notice to appear under
of this title....” 8

13

14

.

.

15

section 1229(a)

§ 1229b(d)(1) (emphasis added). In other words, the statutory provision establishing the

.

“stop-time rule” expressly incorporates the statutory definition of “notice to appear” found in
8 U.S.C. §
1229(a).
The Certificate of Service does not clearly indicate how it was served on Torres, but he appeared at his
hearing on March 17, 2008 and, through his attorney, “concede[d] proper service of the charging document.”
ECF No. 19 at 2.
Torres cites several cases for the proposition that when an agency acts outside its statutory authority, its
action is “null and void.” ECF No. 13 at 11-14. Those authorities have no applicability here. Indeed, they apply
not to prove that the agency lacked jurisdiction but to say that an action taken without jurisdiction is unlawful.
Torres cites them in an effort to prove that there was no jurisdiction.
Congress enacted certain rules to help with the transition between the IIRIRA's passage in 1996 and its
effective date of April 1, 1997. See Cruz Bonilla, 2019 WL 1756533 at *3 n.4; Pub. L. No. 104-208, § 309,
Sept. 30, 1996, 110 Stat. 3009-626. The Fourth Circuit has described IIRIRA's transitional rules as “apply[ing]
to aliens who were involved in deportation proceedings initiated prior to April 1, 1997, and [who] were issued

M'f1l53M

App 12a

10

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

United States v. Torres Zuniga, 390 F.Supp.3d 653 (2019)

16
17

a final deportation order more than thirty days after September 30, 1996.” Okpa v. U.S. I.N.S., 266 F.3d 313,
317 (4th Cir. 2001).
In support, Torres cites District Court cases from the Northern District of California, the Western District of
Texas, and the District of North Dakota.
The Court notes that, at the March 17, 2008 removal hearing, while represented by counsel, Torres admitted
the allegations in the NTA, waived judicial review, and asked to be removed to Honduras. ECF No. 19 at
2-4. And, having been previously granted voluntary departure in 2007, Torres likely cannot demonstrate a
“reasonable probability” that he would have been granted voluntary departure (i.e. not deported) again in

?- United
__
_ 328 F. Supp. 3d 479, 496
States_
v. Ordonez,
_
_ __ 22 I. & N. Dec. 811, 818 (BIA
8 U.S.C. § 1229c(c)); ?- In
re Arguelles-Campos,

2008, meaning that he cannot show prejudice. See

(D. Md. 2018) (citing
1999) (where alien had previously received voluntary departure, a subsequent request for voluntary departure
did “not merit the relief in the exercise of [the Immigration Judge's] discretion”). In other words, the clear
record demonstrates that Torres fails the Section 1326(d) requirement. Indeed, apart from his jurisdictional
argument, Torres has not argued otherwise.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 13a

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

